BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Heather Campbell, hereby certify that 1 unbound
copy and 40 copies of the foregoing Petition for a Writ
of Certiorari in William T. Schmitt, Chad Thompson
and Debbie Blewitt v. Craig M. Stephens, Patricia
Nelson, Doria Daniels, and Elayne J. Cross, in their
official capacities, were sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent Three
Day Service and e-mail to the following parties listed
below, this 30th day of September, 2021:
Pamela J. Holder
Portage County Prosecutor's Office
241 S. Chestnut Street
Ravenna, OH 44266
(330) 297-3850
pholder@portageco.com

Counsel for Respondents
Mark R. Brown
Counsel of Record
Capital Law School
303 East Broad Street
Columbus, OH 43215
(614) 236-6590
mbrown@law.capital.edu
Mark G. Kafantaris
625 City Park Street
Columbus, OH 43206

Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

(800) 890.5001

Suite 102

· 1300 I Street, NW, Suite 400E

Franklin Square

www.beckergallagher.com

Cincinnati, Ohio 45249

· Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 30, 2021.

Heather Campbell
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

~JeB: ~ 30 1 dCJ ~(
~~ - ~
Notary Public

Date:

[seal]

.JOHN D. GALLAGHER
Notary Public, State of OhiO
My Commission Expires
f"ebrumy 14, 2(is''3

